No. _ _ __
October Term 2019

IN THE SUPREME COURT OF THE UNITED STATES

DIANA BERBER.
Petitioner,
v.

WELLS FARGO BANK, N.A., and MARSHA
PAINTER,
Respondents.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT, CASE NO. 19-10661
LAWRENCE R. METSCH
Counsel of Record
Fla. Bar No. 133162
Metschlaw, P.A.
20801 Biscayne Blvd., Suite 300
Aventura, FL 33180-1423
Telephone: (305) 792-2540
Telecopier: (305) 792-2541
E-Mail: l.met1:ith;i~met~ch.cmn

July 1·2020

QUESTION PRESENTED
Throughout the four years of proceedings in this case before the U.S. District

Court for the Southern District of Florida ("the District Court") and the U.S. Court of
Appeals for the Eleventh Circuit ("the Eleventh Circuit"), and until February 20, 2020,
Respondent Wells Fargo Bank, N.A., and its publicly-traded parent, Wells Fargo & Co.
("Wells Fargo"), insisted that the rights of its employee, Petitioner Diana Berber ("Ms.

Berber"), had not been violated by Wells Fargo's retail sales practices.

In a stunning about-face, on February 20, 2020, Wells Fargo publicly confessed
to its many years of retail sales practices wrong-doing by executing three agreements

with the United States Government: (1) a Deferred Prosecution Agreement with the
U.S. Department of Justice ("the DOJ"); (2) a Settlement Agreement with the Civil
Division of the DOJ; and (3) a Settlement Agreement with the U.S. Securities and
Exchange Commission ("the SEC"). Pursuant to the foregoing agreements, Wells
Fargo paid $2,500,000,000.00 to the DOJ and $500,000,000.00 to the SEC in fines,
penalties and restitution to investors.
Ms. Berber, on February 24, 2020, moved in the Eleventh Circuit for leave to file
a second amended petition for rehearing en bane which cited and relied upon Wells
Fargo's executions of the foregoing agreements. On March 24, 2020, the Eleventh
Circuit denied all of Ms. Berber's petitions for rehearing en bane.
Did the Eleventh Circuit, by denying Ms. Berber's petitions for rehearing en
bane, so far depart frorn the accepted and usual course of judicial administration as to
call for an exercise of this Court's supervisory jurisdiction?

TABLE OF CONTENTS

COVER PAGE........................................................................

1

QUESTION PRESENTED....................................................

2

TABLE OF CONTENTS........................................................

3

TABLE OF AUTHORITIES...................................................

4

PARTIES TO THE PROCEEDINGS BELOW......................

5

PETITION FOR A WRIT OF CERTIORARI........................

5

CITATIONS TO OPINION BELOW.....................................

5

STATEMENT OF JURISDICTION.......................................

6

INTRODUCTION...................................................................

7

STATEMENT OF THE FACTS AND PROCEDURAL
HISTORY......................................................................

12

REASON FOR GRANTING THE PETITION.......................

15

CONCLUSION........................................................................

16

CERTIFICATE OF SERVICE................................................

17

3

TABLE OF AUTHORITIES
Pages

FEDERAL STATUTES
28 U.S.C. § 1154(1)..................................................................

6

FLORIDA STATUTES
Florida's Civil Remedies For Criminal
Practices Act ("Florida RICO"),
§§ 772.101- 772.104, Florida Statutes..........................

12

Florida's Private \Vhistleblower Act. ("the
FPWA"), §§ 448.101-448.105, Florida
Statutes ........................................................................ .

12, 13

CASES
Berber u. Wells Fargo Bank, N.A., 760 Fed. Appx.
684, 2019 \VL 126749, 2019 U.S. App.
LEXIS 515 (11" Cir. 2019)..........................................

7f

Berber u. Wells Fargo Bank, N.A., 798 Fed. Appx.
4 76, 2020 WL 91065, 2020 U.S. App.
LEXIS 410 (11" Cir. 2020)...........................................

5

4

PARTIES TO THE PROCEEDINGS BELOW
The Petitioner, Ms. Berber, was the Plaintiff in the District Court and the
Appellant in the Eleventh Circuit.
Respondents, Wells Fargo and Marsha Painter, were the Defendants in the
District Court and the Appellees in the Eleventh Circuit.

PETITION FOR A WRIT OF CERTIORARI
Ms. Berber prays that a Writ of Certiorari issue to review the decision of the
Eleventh Circuit in Case No. 19-10661.

CITATIONS TO OPINIONS BELOW
The January 8, 2020, opinion of the Eleventh Circuit in this cause, reported as

Berber v. Wells Fargo Bank, N.A., 798 Fed. Appx. 476, 2020 WL 91065, 2020 U.S. App.

LEXIS 410, is attached to this Petition as Attachment "A."
The May 24, 2018, order of the District Court granting Wells Fargo's motion to
dismiss Count II of Ms. Berber's Fourth Amended Complaint (Florida RICO) 1s
unpublished, a copy of which is attached to this Petition as Attachment "B."
The January 2, 2019, order of the District Court granting Wells Fargo's motion
for summary judgment as to Count I of Ms. Berber's Fourth Amended Complaint

(Florida Private Whistleblower Act) is unpublished, a copy of which is attached to this
Petition as Attachment "C."

5

STATEMENT OF JURISDICTION
Ms. Berber invokes this Court's jurisdiction to grant this petition for a \,Vrit of

Certiorari to the Eleventh Circuit pursuant to 28 U.S.C. § 1254(1). The Eleventh
Circuit denied Ms. Berber's petition for rehearing en bane, amended petition for
rehearing en bane and motion for leave to file a second amended petition for rehearing
en bane on ~,farch 24, 2020, and issued its judgment as mandate on April 1, 2020.
Pursuant to this Court's order of March 19, 2020, concerning the COVID-19 public
health emergency, Ms. Berber has 150 days from March 24, 2020, in which to petition
this Court for the issuance of a Writ of Certiorari to the Eleventh Circuit.

6

INTRODUCTION
From July, 2013, to March 18, 2014, Ms. Berber was employed as a personal
banker in the Wells Fargo branch located at 3600 North Ocean Boulevard, Fort
Lauderdale, Florida 33308. On March 18, 2014, her employment was involuntarily
terminated by means of a letter signed by her branch manager, Respondent Marsha
Painter, which in pertinent part stated:
We have reviewed your overall performance as a Personal
Banker. We have determined that you have not met the
performance expectations regarding daily activities to attain
sales goals required in this position.
Based on the reason listed above we will terminate your
employment with Wells Fargo effective March 18, 2014.
On October 2, 2016, Ms. Berber filed a civil action against Wells Fargo and Ms.

Painter in the Circuit Civil Division, Eleventh Circuit Court, Miami-Dade County,
Florida, which was assigned Case No. 16-25612 (CA 02) ("Case No. 16-2561211 ) . Citing
the diverse citizenship of the parties, Wells Fargo and Ms. Painter1 removed Case No.
16-25612 to the District Court, which assigned the civil action Case No. 16-CV-24918
ecase No. 16-2491811 ). In the ensuing litigation before the District Court and Eleventh
Circuit, \Vella Fargo successfully contended that Ms. Berber's employment had been
involuntarily terminated because she had acted incompetently as a Wells Fargo retail
sales representative.

Wells Fargo and Ms. Painter successfully contended that Ms. Painter had
been fraudulently joined to defeat subject-matter jurisdiction under 28 U.S.C. §
1332, diversity of citizenship. See, Berber v. Wells Fargo Bank, N.A., 760 Fed. Appx.
684, 2019 WL 126749, 2019 U.S. App. LEXIS 515 (11 th Cir. 2019).
1

7

While Ms. Berber's amended petition for rehearing en bane was pending before
the Eleventh Circuit, on February 21, 2020, Wells Fargo issued a news release ("the
Wells Fargo news release") in which Wells Fargo announced that Wells Fargo, on
February 20, 2020, had entered into three (3) settlement agreements with the United
States Government concerning Wells Fargo's unlawful retail sales practices:
(1) a deferred prosecution agreement with the DOJ;
(2) a civil settlement agreement with the DOJ; and
(3) an administrative order with the SEC.
In accordance with the foregoing agreements, Wells Fargo paid $2,500,000,000.00 to
the DOJ and $500,000,000.00 to the SEC in fines, penalties and investor restitution.
Each of the foregoing agreements was supported by an identical "Statement Of
Facts." Pertinent excerpts from that statement follow:
13. In contrast to the Company's public statements and
disclosures about needs-based selling, Executive A
implemented a volume-based sales model in which
employees were directed, pressured, and/or caused to sell
large volumes of products to existing customers, often with
little regard to actual customer need or expected use. From
at least as early as 2002 to approximately 2013, Community
Bank leadership, including Executive A, directly and/or
indirectly encouraged, caused, and approved sales plans
that called for aggressive annual growth in a number of
basic banking products, such as checking and savings
accounts, debit cards, credit cards and bill pay accounts.
14. By approximately 2010, in light of existing product
penetration, shifting demand, macroeconomic conditions,
and regulatory developments that made certain products,
such as checking accounts- less profitable, the sales plans
were regarded in various parts of the Community Bank as
far too high to be met by selling products that customers
8

actually wanted, need, or would use. Nevertheless, the
number of products sold continued to be a significant
criterion by which the performance of employees, ranging
from tellers and bankers to [Regional Bank Executive)s, was
evaluated. Throughout the Community Bank, managers
responded to the increasing difficulty of growing sales by
exerting extreme pressure on subordinates to achieve sales
goals, including explicitly directing and/or implicitly
encouraging employees to engage in various forms of
unlawful and unethical conduct to meet increasing sales
goals. Many employees believed that a failure to meet their
sales goals would result in poor job evaluations, disciplinary
action, and/or termination. Though there had been evidence
of employees struggling to ethically meet sales goals as
early as 2002, the problem became significantly more acute
beginning in 2010 as the sales plans diverged further from
market opportunity and managers responded by increasing
pressure on employees to sell products that customers did
not want or need and would not use.
15. The Community Bank's onerous sales goals and
accompanying management pressure led thousands of its
employees to engage in (1) unlawful conduct to attain sales
though fraud, identity theft, and the falsification of bank
records, and (2) unethical practices to sell products ofno or
low value to the customer, while believing that the customer
did not actually need the account and was not going to use
the account.

Statement Of Facts, pp. A-5 to A-6.
The Deferred Prosecution Agreement between VVells Fargo and the DOJ, in the
section entitled Wells Fargo's Acceptance of Responsibility, provides:
4. Wells Fargo admits, accepts, and acknowledges that it is
responsible under United States law for the acts of its
officers, directors, employees, and agents set forth in the
Statement of Facts. Vv~ells Fargo agrees that the factual
statements contained within the Statement of Facts are
true and accurate. \\'ells Fargo agrees that the acts and
omissions described in the Statement of Facts are sufficient
to establish violations by \Vells Fargo of Title 18, Cnited
9

States Code, Sections 1005 and 1028A.

5. Wells Fargo shall not, through any of its officers,
employees, attorneys, consultants, or agents, or any other
person authorized to make statements on behalf of Wells
Fargo, make any public statement, in litigation or
otherwise, contradicting the acceptance of responsibility by
Wells Fargo set forth above or of the facts contained in the
Statement of Facts. Any such contradictory statement
shall, subject to the cure rights of Wells Fargo described
below in this Paragraph, constitute a breach of this
Agreement, and Wells Fargo thereafter shall be subject to
prosecution as set forth in Paragraphs 17 through 21 of this
Agreement. If the (United States Attorneys Offices]
determine that Wells Fargo has made a public statement
contradicting its acceptance of responsibility or any fact
contained in the Statement of Facts, the [United States
Attorneys Offices] shall so notify Wells Fargo. Thereafter,
Wells Fargo may avoid a breach of this Agreement by
publicly repudiating the statement within five days after
such notification. Wells Fargo shall be permitted to raise
defenses and to assert affirmative claims in other
proceedings relating to the matters set forth in the
Statement of Facts provided that such defenses and claims
do not contradict, in whole or in part, any statement
contained in the attached Statement of Facts. This
Paragraph does not apply to any statement made by any
present or former officer, director, employee, or agent of
Wells Fargo in the course of any criminal, regulatory, or
civil case initiated against such individual unless such
individual is speaking on behalf of Wells Fargo.
Deferred Prosecution Agreement, p. 4.
The Wells Fargo news release quoted its recently installed Chief Executive

Officer, Mr. Charles Scharf, as stating:
The conduct at the core of today's settlements• and the past
culture that gave rise to it• are reprehensible and wholly
inconsistent with the values on which Wells Fargo was
built. Our customers, shareholders and employees deserved
10

more from the leadership of this Company. Over the past
three years, we've made fundamental changes to our
business model, compensation programs, leadership and
governance. While's today's announcement is a significant
step in bringing this chapter to a close, there's still more
work we must do to rebuild the trust we lost. \Ve are
committing all necessary resources to ensure that nothing
like this happens again, while also driving 'Neils Fargo
forward.
Mr. Scharfs observation that "there's still more work we must do to rebuild the
trust we lost" is accurate in at least one aspect: to date, Wells Fargo has not paid a
penny in compensation to employees, such as Ms. Berber, who were fired between 2002
and 2016 for refusing to engage in the fraudulent retail sales practices necessitated by
Wells Fargo's unconscionably high retail sales quotas and whose personal and
professional lives were thereby damaged or ruined.
The Eleventh Circuit had it within its power to throw a lifeline to Ms. Berber by
granting her motion for leave to file a second amended petition for rehearing en bane,
which was filed after and relied upon the three (3) foregoing February 20, 2020,

settlement agreements between \Veils Fargo and the United States Government.
Instead, on March 24, 2020, the Eleventh Circuit threw a lifeline to Wells Fargo by

denying Ms. Berber's petition for rehearing en bane, amended petition for rehearing
en bane and motion for leave to file a second amended petition for rehearing en bane.

I1

STATEMENT OF THE FACTS AND PROCEDURAL HISTORY
From July, 2013, to March 18, 2014, Ms. Berber was employed as a personal
banker in the \Vells Fargo branch located at 3600 North Ocean Boulevard, Fort
Lauderdale, Florida 33308. On l\·Iarch 18, 2014, her employment was involuntarily
terminated by means of a letter signed by Ms. Painter which in pertinent part stated:
\Ve have reviewed your overall performance as a Personal
Banker. \~le have determined that you have not met the
performance expectations regarding daily activities to attain
sales goals required in this position.
Based on the reason listed above we will terminate your
employment with \Velis Fargo effective March 18, 2014.
Ms. Berber, on '.\!arch 3, 2018, in Case No. 16-24918 filed her Fourth Amended
Complaint against \Vells Fargo and Ms. Painter. In Count I of her Fourth Amended
Complaint, Ms. Berber sought compensatory damages, punitive damages and
injunctive relief against \Vells Fargo and l\Is. Painter under Florida's Private
Whistleblower Act,§§ 448-101-448-105, Florida Statutes ("the FP\VA"). Ms. Berber,
in Count II of her Fourth Amended Complaint, prayed for treble damages against
\Vells Fargo and Ms. Painter under Florida's Civil Remedies For Criminal Practices
Act,§§ 772.101-772.104, Florida Statutes ("Florida RICO").
\Vells Fargo, on March 20, 2018, partially answered l'vls. Berber's Fourth
Amended Complaint by denying liability under the FP\VA. Further, on March 20,
2018, ·wells Fargo and :.\-Is. Painter moved to dismiss Count II of:Ms. Berber's Fourth
Amended Complaint for failure to state a claim for relief under Florida RICO. In that
submission, \Vells Fargo also moved to strike Ms. Berber's claim for punitive damages
12

relating to Count I of the Fourth Amended Complaint.
Ms. Berber, on May 1, 2018, responded in opposition to Wells Fargo's motion to
strike Ms. Berber's claim for punitive damages under the FPWA. Also on May 1, 2018,
Ms. Berber opposed the motion of Wells Fargo and Ms. Painter to dismiss Count II of
the Fourth Amended Complaint.
Wells Fargo and Ms. Painter, in support of their March 20, 2018, motions to

dismiss and strike, filed a reply memorandum of law on May 8, 2018.
The District Court, on May 9, 2018, dismissed Ms. Painter from the civil action,

without prejudice.
On May 24, 2018, the District Court issued an order dismissing Count II of Ms.
Berber's Fourth Amended Complaint for failure to state a claim upon which relief could
be granted and striking Ms. Berber's claim for punitive damages under Count I of her

Fourth Amended Complaint. (Attachment "B")
On August 27, 2018, Wells Fargo moved for a summary judgment dismissing

Count I of Ms. Berber's Fourth Amended Complaint. In support of that motion, Wells
Fargo filed Ms. Painter's affidavit, which depicted Ms. Berber as an incompetent retail
sales representative of Wells Fargo. Ms. Berber opposed that motion on September 3,
2018, which opposition was supported by an affidavit in which Ms. Berber described
the retail sales quotas.based pressures to engage in fraudulent and unethical retail
sales practices to which she had been subjected as a Wells Fargo personal banker.
Wells Fargo filed a reply in support of its summary judgment motion on September 3,

2018
13

The District Court, on January 2, 2019, issued an order granting \\'ells Fargo's
motion for summary judgment dismissing Count I of .!\Is. Berber's Fourth Amended

Complaint. (Attachment "C")
On February 7, 2019, the District Court entered a final judgment in favor of
"½·ells Fargo and Ms. Painter and against Ms. Berber on all claims. ?vis. Berber's notice
of appeal to the Eleventh Circuit was filed on February 19, 2019. The Eleventh Cfrcuit
assigned Case No. 19-10661 to Ms. Berber's appeal.
The Eleventh Circuit, on January 8, 2020, in Case No. 19-10661, by means of
an unpublished opinion, affirmed the District Court's judgment in favor of\Vells Fargo.
Ms. Berber, on January 22, 2020, petitioned for rehearing en bane. An amended
petition for rehearing en bane was filed by Ms. Berber on January 27, 2020.
On February 21, 2020, \Vells Fargo announced that on February 20, 2020, it had
entered into tho three foregoing (3) settlement agreements with the United States
Government. Citing those three (3) settlement agreements, on February 24, 2020, Ms.
Berber moved for leave to file a second amended petition for rehearing en bane. In that
petition, Ms. Berber argued that she would not have suffered the summary dismissal
of Count I of her Fourth Amended Complaint (the FP\V.A) had \.Vells Fargo, prior to
January 2, 2019, "fessed up" to the illegality with which its retail sales practices had
been infused.
Nevertheless, on l\Iarch 24, 2020, the Eleventh Circuit denied Ms. Berber's
petition for rehearing en bane, amended petition for rehearing en bane and motion for
leave to file a second amended petition for rehearing en bane.
14

REASON FOR GRANTING THE PETITION
From October 2, 2016, (when Ms. Berber filed her lawsuit), until February 21,
2020, (when Wells Fargo publicly "fessed up" to the illegality of its retail sales

practices), \Veils Fargo obstructed Ms. Berber's efforts to secure a measure of relief by
successfully blaming Ms. Berber for her ruined personal and professional lives.

The remedy for this egregious miscarriage of justice lies within the bosom of
this Court: (1) grant Ms. Berber's petition for a Writ of Certiorari, (2) set aside the
Eleventh Circuit's judgment, and (3) remand Ms. Berber's cause to the Eleventh

Circuit with directions that the cause be further remanded to the District Court for
jury trial.

15

CONCLUSION
Ms. Berber's petition for Writ of Certiorari should be granted. The Eleventh
Circuit's judgment in Case No. 19-10661 should be set aside. Ms. Berber's cause
should be remanded to the Eleventh Circuit with directions that Ms. Berber's cause be
further remanded to the District Court for jury trial.

..

'

./

I

n/'\

,,/sub~i'· · /
,
'
'
I.[;
.· /- '!/(/;, 1.....• / .
Res

11
_ ) .,

,c/·

'j

/'

(t. f /,,;1 ~

i

/.

__:...,,-

., -·

LAWRENCE R.METSCH
Counsel of Record for Ms. Berber
FBN 133162
c/o Metschlaw, P.A.
20801 Biscayne Blvd., Ste. 300
Aventura, FL 33180-1423
Telephone: (305) 792-2540
Telecopier: (305) 792-2541

rJ.

E-Mail: l.met:-.ch·d,mpt:-;ch.corn

July _L, 2020

16

CERTIFICATE OF SERVICE
I hereby_ cwtify that true copies of the foregoing petition have been electronically

-r1"'-'
served this_,'_ day of July, 2020, on:
Sherril Colombo, Esq. C-:colomho:fl··Jittler.com)
Samantha E. Dunton~Gallagher, Esq. (i.;dunton:dlittler.c:nm)
Littler Mendelson, P,C.
333 S.E. 2"d Avenue
Suite 2700
Miami, FL 33131

LAWRENCE R. METSCH

17

ATTACHMENT ''A''

case 19-10661

Date Filed: 01/08/2020

Page: 1 of 15

[DO NOT PUBLISH]

rN THE LT;'\ITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-10661
Non-Argument Calendar

D.C. Docket :\"o_ I: 16-cv-24918-JEM

DIANA BERBER.
Plaintiff- Appellant,

versus
WELLS FARGO, :SA,
MARSHA P ATh"TER.
Defendants - Appellces.

Appeal from the Cnited States District Court
for the Southern District of Florida

(January 8, 2020)

Before \\1LSON. \VILLIAM PRYOR. and MARCUS. Circuit Judges.
PER CCRIAM:
Diana Berber appeals from the district court's orders granting summarv
judgment on one count. granting a motion to dismiss on another, and striking a claim

J

case 19·10661

Date Filed: 0l/0812020

Page· 2 ol 15

for punitive damages from her complamt ma la\vsuit she filed mvolving a!legedl~1
fraudulent consumer pract!ce5 by her former emplover. \Veils Fargo, ;>;A.

On

appeal. Berber argues that the d1<,tnct court erred m: (1) grantmg summarv judgment
on her state law retaltat10n claun. which she brought under the Florida
Whistkblm,vcr Act CF\\'A'"), Fla. Stat. §§ 448 101-105; and (2) d1smmmg her
claim under the ·Honda RlCO" statute. Fla. Stat § 772.103, for failure to state a
claim

Berber also requests that this Court cert1t\' a question of statutorv

mterpretahon to the Florida Supreme Court. relating to the availabiht~· of punitive
damages under the F\VA.

After thorough revie\v, we affim1 the district court's

rulmgs. and reject as moot the certification request

I
\\'e revie,v a di'>tnct court·!. decis10n granting summary Judgment de novo.
Sienninski ,·_ Tramouth Fm Corp., 216 F3d 9-1.5. 949 (11th Cir. 2000). We construe
all facts an<l draw all reasonable inferences in favor of the non-mo,·ing partv. Id. If.
after we do so. no genuine dispute of material fact remains. summary Judgment

1s

proper. Id.
\\' e also renew the district court· s grant of a motion to d1snuss de no,·o. Bovd
\'_ Warden Holman Correct10nal Facilitv. 8.i6 F..1d 853. 863-64 (11th Cir 2017).
'·To Slll-Yl\'e a motion to dismis~, a complaint mu~t contam sufficient factual matter.
acct:pted as true. to 'state a claim to relief that is plam1bk on its face. "Ashcroft v.

2

case: 19-10661

Date Filed: 011os12020

Page: 3 of 15

Igbal, 556 U.S. 662,678 (2009) (quoting Bell Atlantic Corp. v Twomblv, 550 L'S.
544, 570 (2007)). "Detenmmng whether a complamt states a plaw,ible claim for
relief [is J .

a context-specific task that requires the renewmg court to draw on its

judicial experience and common sense." Igbal. 556 C S. at 679. While we do accept
plausible allegatiom as true. we need not do the same for mere legal conclusions: a
complaint "must include enough fact~ to raise a right to relief above the speculative
level on the assumpuon that all the allegat1om m the complaint are true (even if
doubtful in fact)" Boyd, 856 F 3d at 864 (quoting Twombly, 550 U.S. at 555).
I]

The relevant facts, which are either undisputed or resolved in favor of Berber.
who

1s

the non-moving party, are these. Diana Berber wa~ hired by \Vetls Fargo as

a Personal Banker in Fort Lauderdale. Florida in July 2013. Her employment
continued until hertermination on March 18. 2014. In her tem1ination letter, \Velis
Fargo explained that Berber had not met performance expectations for her position,
and had not performed what \vere termed "daily activities to attam sales goal.s."
Two years after her termmation. Berber filed this lmvsuit in Florida state court
allegmg a Yiolation of the FWA and the Florida RICO statute. Wells Fargo removed
to the United States Distnct Court for the Southern District ofFlorida under diver~ity
jurisdiction. 28 L'.S.C. § l332(a)

In between Berber's termination and initial

complaint, the federal goYemmenf:, Consumer Financial Protection Bureau
3

case 19-10661

Date Filed: 01/08/2020

Page: 4 of 15

('"CFPB") investigated Wells Fargo for fraudulent sales practices, and \Velis Fargo
ultimately reached a settlement with the CFPB. Berber general\v dmms she was
fired for refusing to participate m these sales practices, which allegedly included
opening accounts and applying for credit cards on behalf of consumers without their
action or consent. The district court dismissed Berber·s Florida RICO allegation for
failure to state a claim. and later granted summarv Judgment on her FWA retaliation
daim. This timely appeal follows.
III.
First. we are unpersuaded h\ Berher' s argument that the di strict court erred m
granting summary judgment on her FWA claim. The FWA provides. in relevant
part, that " [aJn emplover may not take anv retahatorv personnel action agamst an
employee because the emplo:,-"el'" has _ .. (-1) [o]bjected to. or refused to participate
m. any act1vitv. policv. or practice of the em plover which 1s tn violation of a law.
rule. or regulation." Fla. Stat. § 448 102.

A retaliation claim under the FWA is

guided bv the same analvsis as a Title VII federal claim. See. e.g, Sierminski. 216
F.3d at 950. Accordingly. a plamtiff claimmg retaliation under the FWA must
establish a prima facic case b,· demonstrating: (l) she engaged in a statutoril~·
protected activity: (2) she suffered an ad verse emplovment actwn:: and (3) the two
are causally related See Olmsted v. Taco Bell Corp., 141 F.3d 1457. 1460 ( 11th Cir.

1

The adverse employ1nent action prong is not ~t issue m tlus case.
-I

Case: 19·10661

Date Filed: 01/08/2020

Page: 5 ol 15

1998). The burden then switches to the defendant to offer a legitimate reason for the
adverse action: if the defendant can do so. the plamtiff then must pro>e that the
proffered reason 1s "mere pretext" for prohibited. retaliatory conduct. Id.; see also
McDonnell Douglas Corp. v. Green. 411 U.S. 792. 798 (1973).
In the operative complaint which has been amended four times. Berber clauns
she was terminated in violation of the FWA in retaliation for refusing to increase her
sales figures through the fraudulent openmg of accounts for consumers. based on the
allegations Wells Fargo settled after her termination. Hmvever. Berber admits she
never was personally asked to engage in anv fraudulent sales practices or directly
encouraged to do so; she was not even a,vare an~· fraud was taking place at the time.
She sa~·s she was mappropriately judged on her lower sales record against coworkers
with high sales, \Vhom she "suspected" of engaging in fraud. but offer<; no support
for her suspicion that her coworkers in fact engaged in fraudulent practices.
Berber seems to be arguing that she was indirectlv pressured to engage m
fraud. because the sales goals \Vere so high as to be otherwise unattainable. But she
admits she was unaware that the sales conduct was potentially illegal. and that she
never reported any activity to management or outside of the compan~·- Berber also
admits she never refused a request to engage in fraud. Berber says she "refused to
participate" in opening accounts for individuals who may not have needed them. but
admits there was "11ever an instance" where she ,vas asked to engage in any tvpe of

Case: 19·10661

fraudulent activity

Date Filed: 0110812020

Page: 6 of 15

Instead, she felt vaguely "pressured to generate sales." The

district court granted summary judgmi:nt on Berber's F\VA claim. holding that
Berber failed to demom,trate that she "objected or refused to participate·· in any
illegal activity. We agree.
A key element for an:v retaliation claim is to identif;--' precisely the protected
activit~, that 1s being retaliated against. Berber·s claim fails here because there is
nothing m the record that creates a genmne issue of material fact that Berber ever
"refu~ed" to do imything. She \Vas never asked to commit fraud. never spoke out
against any alleged fraud bemg committed at the companv. and. at the time, never
even knew the practices in question might be illegal. She also did not know fraud
was being committed by her coworkers. but "suspected.. it \Vas. At most. Berber ha!>
alleged she felt ··pre'>'>ured'' to mcrease her sales goals. but importantly. this pressure
was never characterized as pressure to commit fraud. It is a momentous leap to claim
that a failure to respond to general pressure to increm,e sales somehow transforms
into an active refusal to commit fraud under the FWA.
As for Berber's sugge~tion that passive inaction is sufficient to qualify as a
"refusal" or objection under the FWA (or Title \'II). we are unpersuaded. Berber
focuses on the phrase "refused to participate." claimmg she refused to engage in
fraud to mcrease sales. However, the word "refuse" (when. as here, it's used ,vith
an infinitive. like "to participate.. ) is defined as: "to show or expre~s a positi\·e
6

Case· 19-10661

Date Filed: 01/08/2020

Page: 7 of 15

unwillingness to do or complv with" Webster's Third New International Dictionary

I 910 (2 002). Under no interpretation of the facts did Berber express any "positive
m1willingness" to participate in the alleged fraud.

At most. she felt nguely

.. pressured" to increase her sales, and she did not engage in illegal acts to alleviate
this pressure. This can hardly be characterized as a '"positive umvillingness" to

engage in fraud. ,vhen she did not claim she was being specificallv pressured to
commit fraud in the first place.
The tlaw in Berber's interpretation is also revealed by the purpose of the
F\V A. The Florida Supreme Court has ruled that the FWA aims to achieve the same
goal as a similar Florida law regarding public employees: "to encourage the
elimination of public corruption by protecting public employees ,,,..ho 'blow the
,vhistle. "'

Arrow Air ,. . Walsh. 64 ~ So. 2 d 422. 424 (Fla. 1994) (quotations

omitted).: That is. the FW A is aimed at encouraging emplo~•ees to speak out and
act ,vhen they witness illegality. Standing by and taking no action does not increase

illegal activity, but it also dearly does not '"eliminate" it.
li"nder both the plain meaning of the word "refuse," as ,veil as the FWA 's goal
to encourage the active elimination of illegality. Berber's argument about passive

Like the pl'ivate employee pl'O\'bi011 at issue !me. the public employee counterpait tracks the
Janetuag:e in the FWA as well. protecti11g employees who ·'refuse to pa11icipate" in activity
prohibited by the law. Fla Stat. § l 12 .3187 (7).

!

7

case: 19-10661

Date Filed: 01/08/2020

Page: 8 of 15

inaction falls flat. 3 Thus, because Berber has not identified any protected acti1:ity
she took to "object or refuse to participate [inr against illegal actiYity, she has failed
to establish a prima facie case of retaliation under the FWA.
But even if Berber had established a prima facie case of retaliation. she has

failed to rebut \Velis Fargo's proffered legitimate reasons for her tennination as
pretext. Berber appears to argue that because she was unable to meet the sales goals.
it was impossible to meet the goals without engaging in fraud. However, many other
legitimate explanations exist: higher effort by her cmvorkers. more time invested.

pre.existing relationships with potential customers. or simply an aptitude ti.,r sales.
Berber has offered nothing to support the idea that the sales goals were only
attainable through fraudulent means. Without offering more specificity, Berber has
not rebuned the proffered reason for her termination: she failed to meet her sales
goals.

Berber"s cited authority is unpersuasive. h1 Keams v. Fanner Acquisition Co .. a car salesman
was Tenuinated after complaining to 1111111ageme11t that rhe dealership was not inspecting: its cars
befol'e side. among other questionable practices. 157 So. 3d 458 (Fla. Dist. C't App. 2015).
However. we can easily identify the objection the plaintiff took: he repeatedly and explicitly made
complaints about the illegality of the actions. Id. at 461-62. Thus. that case does not helpBerber·s
argument. Her second citation. Aerv v. Wallace Lincoln-Merciny, LLC. is m1pem1asive for rhe
same reason: the plaintiff there had a sit-down meeti.ug with management to discuss m1 illicit paitswitching scheme. 118 So. 3d 904. 907--08 (Fla. Dist. Ct. App. 2013). Lastly, Berber's citation
to United States v. Stein fares no better: Stein stands for the proposition that an affida\!'it need not
be disreg1U"ded merely because it is self-serving. but rather the self-serving element should be
weighed alongside the rest of the affidavit by the finder of fact. 881 F.3d 853. 858 {11th C'ir.
2018). Here. we are not weighing evidence at all: even after takini any genuine factual dispUTe in
Berber"s favor. she still has not alleged any active refusal or action taken in opposition 10 illegality.
l

8

Case: 19-10661

Date Filed: 01/0812020

Page: 9 of 15

Indeed, if anything, the record reveals additional legllimate justifications for
her firmg. For example, Berber was cited for arriving to \Vork late. failing to arrange
appointments with potential customers. and failing to orgamze out-of-office events
to generate sales. \Vhen we consider these reasons as a whole (all of which refate to
sates. the stated reason for her tennmatmn). Berber has not shmvn a genuine dispute
of material fact indicating that her failure to meet sales goals was a pretext for her
tennination. Because Berber has no proof that fraud was required to meet the bank's
demands, and because ample evidence supports a legitimate reason for her
termination. we affirm the district court's grant of summary judgment on this claun
We are also unconvinced bv Berber's argwnent that the district court erred in
dismis~ing her claim under Florida's RICO statute, which alleged that an enterprise
of Wells Fargo. its parent company, and Berber's supervisor committed fraud on
customers. resulting in Berber's in,1my through her termination. Florida's RICO
statute i~ largely modeled after the federal version and requires similar element~· (I)
conduct of (2) an enterprise (3) through a pattern (4) of criminal activitv. Fla. Stat.
§ 772.103: see abo, e.g., Gross v. State. 765 So. 2d 39. 42 (Fla. 2000) ("'Given the

similarity of the state and federal statutes. Florida courts have looked to the federal
courts for guidance in construing RICO provisions."): Bortell v. White Mts. Im.
Grp., Ltd. 2 So. 3d 104L 1047 (Fla. 4th DCA 2009). Like the federal vers10n.
Florida courts have required a showing of proximate cause between the claimed
9

case· 19-10661

Date Filed. 01108/2020

Page: 10 of 15

injury and the predicate criminal act. See Bortell. 2 So. 3d at 1047; see also Holmes
v. Securities lnvt:stor Protection Corp.. 503 U.S. 258, 268 ( 1992).
Here. the district court dismissed Berber's argument for failure to state a claim
that is. the failure to plausibl:v allege proximate cause between her injury
(termination) and the predicate criminal act (committing fraud on customers).
\V1lile the sometimes-nebulous proximate cause analysis has frustrated courts for
generations, the facts as pled are be~·ond an~· reasonable defimt10n of proximate
cause.
In Wells Fargo. ,ve explained that for a statutory claim ansing under the Fair
Housing Act. foreseeability of m.1ury alone 1s not sufficient to satisfy proximate
cause.

Instead. we must also 1dent1f\ ··some direct relation between the injurv

asserted and the injurious conduct alleged." City of Miami'"· Wells Fargo & Co ..
923 FJd 1260, 1264 (11th Cir. 2019) (citing Bank of Am. Corp. v. C'itv of Miami,
137 S. Ct. 1296. 1306 (2017)). That

I'>,

"while foreseeability ensures 'cause,· 'some

direct relation· ensures that the cause is sufficiently 'proximate .... \Vells Fargo. 923
F.3d at 1272. We ask if there is "a direct_ logical. and identifiable connection
between the mjury sustained and its alleged cause. If there is no discontinuity to call
into question whether the alleged misconduct led to the injun·, proximate cause will
have been adequately pied." Id. at 116-4.

10

Further. the analysis will "depend[] in

Case: 19·10661

Date Flied: 01/08/2020

Page: 11 of 15

part on the 'nature of the statuton.- cause of action."' Id. at 12 72 (cnmg Bank of
Am .. 137 S. Ct. at B06).
Specific to RICO, the Supreme Court has long requin:d that there be "some
duect relation" bet,wen the claimed nolation and resultmg m_JurY. Holmes, 503
G.S. at 268. In Holmes. the Supreme Court explamed that "[a]llowmg suits by those
mJured on!~· mdirectly would open the door to massin~ and complex damages
litigation." so "'RICO's rcmcd1al purposes would more probablv be hobbled than
helped" by a relaxed proximate cause standard. Id. at 27-L The Supreme Court
reiterated this standard of camation m Anza, a RICO case when~ the pl am tiff claimed
mJurY resultmg from a competitor fa1hng to charge sales tax. Anza ,;_ Ideal Steel
Supply Corp., .'i,.P l·.s_ 4.'."L 4.'iJ-.'i5 (2006). In Anza, again, the Supreme Court
concluded that proximate' came was lacking. because the "direct victim"' of the
RICO v10]ation was the state tax collector, not the plaintiff. Id. at 458. The Court
explained that the cause of the alleged harm (losmg busmes~ due to a competitor's
lower pnces) ,ns "entlrelv distinct from the alleged RICO nolation (defraudmg the
State)." and that an:v connection between the t,rn was "attenuated." Id. at 4S8-.'."9
Accordingly, our case law 1s clear· for a RICO cla1m, the plamt1ff must identll:\'
"some direct relation" between th<' lllJUn' and alleged RKO \'lolation.
Viewmg Berber's allegat10n m the most grncrous light pmsible, she fails to
state a clatm for relief Berber argues the following cham under Florida RICO TI1e
11

case: 19-10661

Date Filed: 01/08/2020

Page: 12 of 15

predicate conduct was that Wells Fargo allegedly committed fraud on its customers
by opening unrequested accounts in their name. The ··enterprise" was between
Wells Fargo, its parent company, and Berber's supervisor... The "pattern" was
ongoing fraud against customers. The "injury" was Berber's termination and its
corresponding consequences.
E\'en under a generous construction of proximate cause. Berber's injury was
disconnected from the alleged conduct against Wells Fargo customers. At best,
Berber's tennination was an unrelated consequence many steps dO\'m the causal
chain. Compare her claim to the facts in Wells Fargo. There, the casual chain was
easy to identi(v: Redlining leads to higher foreclosures. Higher foreclosures lead to
less tax revenue. Or. compare to Anza: A company fails to pay enough taxes. letting

them sell their o,vn products for less. leading to a competitor's loss ofreYenue. 547
U.S. at 453-55. That causal chain was far simpler than Berber·s. and even there the

Supreme Court found it insufficient. Here, Berber says that as a side effect of the
fraud on customers. she was fired for not similarly committing fraud. This is. at
best, a tenuous causal chain, and her own actions relating to coming into work late

The disn·ict co\u1 noted that an ··enterprise" likely does nor exist between Berber's supe1visor.
Wells Fal'go N .A. (subsidiary). and \\!ells Fal'go & Co111pa11y (parent). The definition of
·'enterprise" tu1der both federal and Florida RICO is a hotly disputed area oflaw among tbe federal
circuits. Since Berber's claim fails on other grmmds. we need not address this issue. See United
States v. Goldi11 lndm .. 219 FJd 1271. 1276 n.7 (11th Cir. 2000) (decliuing to ntle on whether a
parent/subsidiary relationship qualifies as an ente1prise).
4

12

Case: 19-10661

Date Filed: 01/08/2020

Page: 13 of 15

and failing to conduct sales events likely sever whateYer thin connection might have
existed.
Berber argues that Wells Fargo somehow lowers the bar to find proximate
cause. We are unpersuaded: the Supreme C'oun required us to increase our scrutiny
of proximate cause by analyzing not only foreseeability, but also whether there was
··some direct relation." See Wells Fargo. 923 F.3d at 1264 ("The [Supreme] Court
held that the standard that this panel had applied -- foreseeability -- was not enough
on its own to demonstrate proximate cause."}. Further. RIC'O claims have long
required "some direct relation" betwee11 the injury and alleged RJC'O violation. See
Holmes. 503 U.S. at 268. Berber's claim fails because allegedly defrauding banking
customers neither foreseeably leads to firing an employee, nor does it have any direct
relation. Despite its ever-expanding scope. RICO was never intended to allow for
sprawling civil causes of action. The Supreme Court in Anza expressly said there
was "no need to broaden the universe of actionable harms to pennit RICO suits by
parties who have been iajured only indirectly." 547 U.S. at 460. Creative utilization
of RICO notwithstanding;. under no interpretation could we envision the intent of the
law to allow for liability under Berber's remote casual chain. 5 Accordingly. even

; Bei'l"ICJ''s other authority is also unhelpfid. hl Burgese v. Starwood Hotels & Resorts Worldwide,
hie .. a district cmu1 case i11 tlie Third Circuit. hotel staffhad been i11volved in a prostitution scheme.
and the plaintiff brought a RICO claim after being assaulted by pro~tinites in the hotel lobby. 101
F. Supp, 3d 414. 418 {D.N.J.2015). Regardless of the accuracy of the proximate cause analysis
in that case, Berber"s causal chain is far less direct than the resulting injury there. l!l at 426.
13

Case: 19-10661

Date Filed: 01/08/2020

Page: 14 of 15

under a generous pleading standard, Berber has failed to plead a plausible claim
under RICO. We again must affim1
Last, Berber asks us to certifv a question about the availability of puniti\'e
damages under the FWA to the Florida Supreme Court.

Since ,ve've rejected

Berber's FWA retaliation claim. we deny this request as moot. But even ifwe had
ruled otherwise, we would still deny the request. Certification to a state supreme
court is ,varrauted when "substantial doubt exists about the answer to a material state

law question." Winn-DLxie Stores, Inc. v. Dolgencm:p. LLC. 746 F.3d 1008, 1039
(11th Cir. 2014) (citation omitted). As the district court explained, the answer here

is clear: The FWA explicitly outlines the types of relief available. and punitive
damages did not make the list. See, e.g., Branche v. Airtran Airways, Inc., 314 F.
Supp. 2d 1194. 1197 (M.D. Fla. 2004}; Hanna v. WCI Cmtys., Inc .. 348 F. Supp. 2d
1332, 1333 (S.D. Fla. 2004}. 6

Berber also offers KT. v. Roval Caribbean C'rni,es. Ltd .. 931 F.3d 1041 (1 Uh Cir. 2019). But
K.T. was not a RICO case. and the Coun found proximate cause when a crnise ship hi·eached its
duty to guard an m1dernge, intoxicated passenger from going to a cabin with a group of men.
Again. the causal chain there (overservi.ng and failing to protect an underage passenger) was at
least somewhat related to the resultiug injury (sexual assault). Those facts ai-e distinct from
Berber's,
~

Berber cannot claim that pm1itive damages were intended to be included as a J"esidual catchall.
because the stanite already contains oue. allowing ·'[a]ny other compensatorv damages r11lowable
at law." Fla. Stat. § 448. 103 (emphasis added).
14

case: 19-10661

Date Filed: 01/0812020

Page: 15 of 15

AFFIRl\IED. ~

Iu additiou. we DE~Y Berber's motion to rake _judicial notice of the Wells Fargo settlemeut a,
i.milevant. because even if we assume \\'ells Fargo settled claims of fraud, om- evaluation of
Berber's claims does 1101 chimge.
1

15

ATTACHMENT ''B''

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 1 of 11

U:'l'ITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Miami Division
CASE NO.: 16-24918-CIV-MARTINEZ-GOODMAN
DIANA BERBER,
Plaintiff,

v,.
WELLS FARGO BANK, N.A.,
Defendant.

----------~'
ORDER GRANTING DEFENDANT'S MOTION TO DISMISS COUNT 2 OF
PLAINTIFF'S FOURTH AMENDED COMPLAINT (FLORIDA RICO) and
GRANTING MOTION TO STRIKE PUNITIVE CLAIM ASSERTED IN COUNT
I OF FOURTH AMENDED COMPLAINT (FLORIDA WHISTLEBLOWER ACT)
THIS CAUSE is before the Court on the Defendant Wells Fargo Bank, N.A. ("Wells
Fargo")'s Motion to Dismiss Count 2 (Florida RICO) of Plaintiffs Fourth Amended Complaint
("the Complaint") and Motion to Strike the Punitive Damage Claim asserted in Count 1 (Florida
Whistle blower Act) of Plaintiffs Fourth Amended Complaint filed March 20, 20 l 8 [ECF 187].
Following careful review of the motion, together with Plaintiffs Responses in Opposition [ECF
2 I 8, 220] and the Defendant's Reply [ECF 223], the Court concludes that the Complaint fails to
sufficiently allege proximate cause under the Florida RICO statute, and also fails to allege
sufficient facts from which the existence of a distinct RICO "enterprise" could plausibly be

inferred. In light of these deficiencies, the Court grants the motion to dismiss the Florida RICO
count for failure to state a claim upon which relief may be granted.
While leave to amend should generally be freely granted when necessary in the interests

of justice under Fed. R. Civ. P. 15(a), in this case Plaintiffs Florida RICO claim, based on

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 2 of 11

predicate acts of alleged consumer fraud perpetrated against bank automobile loan customers,
will be dismissed with prejudice because the Court deems re-pleading to be futile. Plaintiff's
allegations regarding the harm she allegedly suffered (wrongful termination, a miscarriage and
emotional pain and suffering) as a result of Defendant's alleged misdeeds do not support a viable
theory of proximate causation under the Florida RICO statute. Because the Court sees no
possibility for Plaintiff to amend to correct this deficiency, it finds amendment futile and shall
dismiss Count 2 of the Fourth Amended Complaint with prejudice.
The Court shall also grant the Defendant's motion to strike the punitive damage demand
asserted in Count I under the Florida Whistleblower Act. This Court has already ruled that
punitive damages are not available under the Florida Whistleblower Act (ECF 121] and affirms
that ruling here. See Branche v. Airtran Airways, Inc., 314 F. Supp. 2d 1194, 1196 (M.D. Fla.
2004) ("the [Florida] legislature chose not to provide for punitive and non-compensatory
damages in enacting Section 448.103 (2) and this Court cannot judicially extend the remedies
available beyond what the legislature has chosen.").

I.

FACT BACKGROUND

The following facts are taken from the Plaintiff's Fourth Amended Complaint [ECF 176].
The Court assumes them to be true for purposes of deciding this motion and construes them in
the light most favorable to the Plaintiff as the non-moving party.
The Plaintiff, Diana Berber, was previously employed as a personal banker at the Wells
Fargo bank branch located at 3600 North Ocean Blvd, Fort Lauderdale, Florida, between July,
2013 and March, 2014.
Manager.

During this time frame, she reported to Marsha Painter as Bank

Plaintiff contends she was continuously pressured to open additional checking,

savings and credit card accounts for existing Wells Fargo customers, and to recruit new

2

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 3 of 11

customers for such services, and was humiliated and criticized by Ms. Painter because she failed
to meet her new account quotas. Plaintiff claims she was ultimately fired on March 18, 2014
because she objected to, or refused to participate in, illegal consumer sales practices perpetrated
by Wells Fargo in connection with the opening of new accounts, in violation of 12 U.S.C

§5536 [ECF 176 ~, 33-39] and that her alleged retaliatory discharge violated the Florida
Whistle blower Act, § 448. I 02(3), Fla, Stat (Count I),
She also alleges that the Defendant Wells Fargo, N.A, acting in concert with Ms.
Painter, engaged in a "pattern of criminal activity" between July, 2013 and March 18, 2014, by
defrauding Wells Fargo automobile loan borrowers, and by "willfully blinding themselves to the
commission of frauds by their employees" [ECF 176151]. She contends Wells Fargo, N.A. and
Ms. Painter "generated proceeds" directly or indirectly from this pattern of criminal activity, and
that the proceeds were used to further the operation of Wells Fargo & Company, the parent
company to Wells Fargo, N.A.. In addition, Plaintiff alleges that she relied on indeterminate
promises to be treated "fairly and in good faith" made by her employer, and that the Defendant
breached those promises when it fired her in March, 2014 after she voiced objection to Wells

Fargo's questionable sales practices.
As a proximate result of this alleged pattern of criminal activity, Plaintiff contends she

has suffered economic loss, a miscarriage and mental anguish and loss of capacity of the
enjoyment of life [ECF I 76 ~ 55].
II.

Standard of Review

To withstand a motion to dismiss under Fed. R. Civ. P. 12(b) (6), "a complaint must

contain sufficient factual matter, accepted as true, to 'state a claim to relief that is plausible on its

face,"' Ashcroft v. Iqbal, 556 U.S. 662,678, 129 S, Ct. 1937, 173 LEd. 2d 868 (2009) (quoting

3

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 4 of 11

Bell Atlantic Corp. v. Twombly, 550 U.S. 544,570, 127 S. Ct. 1955, 167 L.Ed.2d 929 (2007)).

"A claim has facial plausibility when the plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged." Id. at
663, 129 S. Ct. 1937. "[A]n unadorned the-defendant-unlawfully harmed me accusation" does
not suffice. Id. at 678,129 S. Ct. 1937.
In reviewing a motion to dismiss, the Court must accept the factual allegations set forth in
the complaint as true, construing them in the light most favorable to the plaintiff and drawing all
reasonable inferences in plaintiffs favor. Pie/age v. McConnell, 516 F.3d 1282, 1284 (I I~ Cir.
2008). However, the court need not accept an inference when there is "an obvious alternative

explanation." Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 567, 127 S. Ct. 1955, 167 .Ed. 2d
929 (2006).
Because Plaintiffs RICO claim in this case is based on an alleged pattern of criminal
activity consisting of fraud, her substantive RICO allegations must comply not only with the

plausibility criteria articulated in Twombly and Iqbal, but also with the Fed. R. Civ. P. Rule

9(b)'s heightened pleading standard. Ambrosia Coal & Constr .. Co v. Pages Morales, 482 F.3d
1309, 1316 (I I th Cir. 2007). That is, with regard to fraud-based RICO claims, "the pleader must
state the time, place and specific content of the false representations as well as the identities of
the parties to the representation and manner in which the statements misled the plaintiffs."
Brooks v. Blue Cross & Blue Shield of Fla., Inc., 116 F.3d 1364, I 380-81 (11th Cir. I 997); Alan
Neumann Prods, Inc. v. Albnght, 862 F.2d 1388, 1392-93 (9 th Cir. 1989).
III.

Analysis

Plaintiffs Fourth Amended Complaint [ECF 176] asserts claim for violation of the

Florida Whistleb!ower Act, § 448.102(3), Fla. Stat. (Count I) and for violation of the Florida

4

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 5 of 11

CiviJ Remedies for Criminal Practices Act, Fla. Stat., § 772.101 et seq., Florida's equivalent of
the federal Racketeer Influenced and Corrupt Organizations Act ("Florida RICO") (Count 2). At

issue here is the sufficiency of the Plaintiffs Florida RICO claim, which alleges the Defendant's
violation of certain federa1 and state laws as a predicate "pattern of criminal activitf' for

purposes of imposing treb)eadamage RICO liability.
Section 772.104, Florida Statutes, provides in relevant part:
Any person who proves by clear and convincing evidence that he or she has been
injured by reason of any violation of s. 772.103 shall have a cause of action for
threefold the actual damages sustained and, in any such action, is entitled to
minimum damages in the amount of $200 and reasonable attorney's fees and
court costs in the trial and appellate courts.
1

Fla. Stat. § 772. 104( I ).
Under Section 772.J 03(3)) in tum) it is "unlawful for any person ... [e]mployed by, or
associated with, any enterprise to conduct or participate ... in such enterprise 1 through a pattem2
of criminal activity 3••• "
Thus, in order to plead a violation of RICO under the Florida statute, a plaintiff must
allege (I) conduct (2) of an enterprise (3) through a pattern (4) of criminal activity. The RICO
statutes 4 have been construed to also require that a plaintiff plead (1) distinctness, as to the RICO

1 An enterprise is defined by the statute as "any individual, sole proprietorship, partnership, corporation, business
trust, union chartered under the laws of this state, or other legal entity, or any unchartered union, association, or
group of individuals associated in fact although not a legal entity." 772. 102, (3), Fla. Stat. It includes "illicit as well
as licit enterprises and governmental, as well as other, entities." Id

A "pattern of criminal activity' is defined as ''engaging in at least rwo incidents of criminal activity that have the
same or similar intents. results, accomplices, victims or methods of commission or that otherwise arc interrelated by
distinguishing characteristics and are not isolated incidents." Fla, Stat. § 772.102(4).
2

"Criminal activity" is defined at Fla. Stat. 772.102 (I) by reference to numerous Florida statutes, including, as
relevant here, crimes chargeable by indictment or infonnation under Ch. 817, relating to fraudulent practices, false
pretenses, fraud generally and credit card crimes, (772.102( I).22 ).

3

4 Since Florida RICO is patterned after federal RICO , Florida courts have traditionally looked to federal authorities
for guidance in interpreting and applying the Florida statute. Accordingly federal decisions are generally accorded
great weight in the interpretation of Florida RICO. Wilson v. Stale, 596 So.2d 775 (Fla. I11 DCA I992); Boyd v.

s

Case 1:16-cv-24918-JEM

Document 230 Entered on FLSD Docket 05/24/2018 Page 6 of 11

"person" and the "enterprise," Cedric Kushner Promotions, Ltd v. King, 533 U.S. 158, 161, J 21
S. Ct. 2087, 150 L.Ed. 2d 198 (2001 ); United States v. Goldin Indus., Inc., 219 F.3d 1268, 1271
(11 th Cir. 2000) (en bane); Pa/mas Y Bambu, SA. v. E.I. Dupont De Nemours & Co., 881 So.2d
565 (2004 ), and (2) proximate causation of the cl aimed injury by the predicate criminal conduct.

Holmes v. Sec. Investor Protection Corp., 503 U.S. 258, 268 (1992). Further, the "pattern"
element is interpreted to require, "in addition to similarity and interrelatedness of racketeering
activities, proof that a continuity of particular criminal activity exists." State v. Lucas, 600 So.2d
l 093, l 094 (Fla. 1992).
A. Personal Injury Claimants

Unlike the federal RICO statute, on which it was patterned, the Florida RICO Act
generally allows recovery for "any person who has been injured" by reason of a pattern of
predicate criminal activity; the Florida statute does not expressly limit recovery

~

as does the

federal statute -- to persons who have suffered injury to their "'business or property," language
which has been interpreted to exclude economic losses arising out of personal injuries. See

Grogan v. Platr, 835 F.2d 844, 847-48 (1 I th Cir. 1988). There is limited authority addressing the
import of this distinction. At least one reported decision, however, has found the Florida RICO
statute to diverge on this point and to allow recovery of personal injury and related pecuniary
losses flowing from criminal activity. Burgese v. Starwood Hotels & Resorts Worldwide, Inc.,
101 F. Supp, 3d 414 (D. N. J. 2015) (hotel patron randomly attacked in lobby), citing Townsend

v. City of Miami, Case No. 03•21072 (S.D, Fla. 2007),
Assuming, arguendo, that Florida RICO is properly interpreted more broadly than federal
RICO in this regard, and that recovery of damages for personal injuries suffered "by reason of' a

State, 57 8 So.2d 718 (F!a. 3d DCA}, rev. den., 5 ! So.2d 1310 ( 1991 }; State v. Nishi, 52 l So. 2d 252 (Fla. 3 d DCA),
rev, den., 531 So.2d 1355 (Fla. 1988

6

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 7 of 11

systematic violation of one or more of the enumerated criminal statutes is authorized under
Florida RICO, the Court concludes that the Plaintiffs RICO claim in this case fails to state a

cause of action because it does not adequately allege proximate cause or the existence of a RICO
enterprise distinct from the RICO person.

And, to the extent the RICO claim is based on an

alleged pattern of fraud-based criminal activity, it is fatally deficient for failure to describe the
underlying acts of fraud with the specificity required under Rule 9(b).
B. Distinctness of Enterprise
To establish liability under RICO, one must allege and prove the existence of two distinct
entities: (I) a "person" and (2) an "enterprise" that is not simply the same "person" referred to by
a different name. Cedric Kushner Promotions, Ltd. v. King, 533 U.S. 158, 161, 121 S. Ct. 2087;

Whelan v. Winchester Prod. Co., 319 F.3d 225,229 (5'' Cir. 2003).
In this case, with regard to the "enterprise" elemen~ Plaintiff apparently proceeds on
theory that Defendant Wells Fargo N.A., and Ms. Painter are RICO "persons" who participated
in a RICO "enterprise" consisting of Wells Fargo & Company, the corporate parent of Wells
Fargo N.A .. Thus, the current motion requires the Court to determine whether the alleged RICO
persons, Wells Fargo, N.A. and Ms. Painter, are sufficiently distinct from the alleged RICO
enterprise, Wells Fargo & Company, to support civil RICO liability. For reasons stated below,

the Court concludes that they are not.

Most circuits have held that a parent company and its subsidiaries cannot fonn an
"enterprise" for RICO purposes unless there is some suggestion that the vehicle of corporate
separateness was deliberately used to facilitate unlawful activity.

For example, in Bucklew v.

Hawkins, Ash, Baptie & Co., LLP. 329 F.3d 923 (7" Cir. 2003), where "the enterprise alleged
to have been conducted through a pattern of racketeering activity ... [was] a wholly owned

7

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 8 of 11

subsidiary of the alleged racketeer," the court explained that a separate incorporation did not
constitute "sufficient distinctness to trigger RICO liability ... unless the enterprise's decision to
operate through subsidiaries rather than divisions somehow facilitated its unlawful activity." Id.
at 934.

The Sixth Circuit has similarly held that although "a parent corporation and its

subsidiaries [typically] do not satisfy the distinctness requirement," they may incur RICO
liability ';when the parent corporation uses the separately incorporated nature of its subsidiaries
to perpetrate a fraudulent scheme." In re ClassicStar Mare Lease Litig., 727 FJd 473, 493 (6 th
Cir. 2013); Bessett v. Avco Financial Services, Inc. 230 F.3d 439, 449 (1 st Cir. 2000) ("In most
cases, a subsidiary that is under the complete control of the parent company is nothing more than
a division of the one entity. Without further allegations, the mere identification of a subsidiary
and a parent in a RICO claim fails the distinctiveness requirement"); Cruz v FXDirectDealer,
LLC, 720 F.3d 115 (2d Cir. 2013). See also Fogie v. THORN America, Inc. 190 F.3d 889, 898

(8 th Cir. 1999). 5

Under this line of authority, the distinctiveness inquiry in a parent-subsidiary context, for
RICO purposes, focuses on whether the fact of separate incorporation facilitated the alleged
unlawful activity. See e.g. In re Countrywide Financial. Corp Mort. Mktg & Sales Practices
Litig, 60 I F. Supp. 2d 120 I, 1213-15 (S.D. Cal. 2009) (adopting Bucklew test in absence of

controlling Ninth Circuit precedent); Chagby v Target Corp., No. CV 08A425•GHK (PJWx),
2009 WL 398972 at • 1 n. 2 (C.D. Cal. 2009) ("If, as alleged, Target Corp and its subsidiaries are
a RICO enterprise, then every corporation that has subsidiaries and commits fraud is an
enterprise for RICO purposes. That is not the law''); UJIT4/ess, Inc. v. FedEx Corporation, 157

' The Eleventh Circuit Court of Appeals has not squarely addressed this issue, see United States v. Goldin
Industries, Inc., 2 I9 F.3d 1271, 1276 n. 7 {l 1th Cir. 2000)(expressly reserving question of whether "wholly-owned
subsidiaries conducting a pattern of racketeering activity through an enterprise comprised only cf themselves and the
parent corporation" could be RICO defendants).

8

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 9 of 11

F. Supp. 3d 341,352 (S.D.N.Y. 2016) ("Limiting RICO liability in the parent-subsidiary context

to circumstances in which separate incorporation facilitates the racketeering is []consistent with
the text and purposes of the RICO statute").
In this case, the Complaint does not allege that Wells Fargo N.A. 's separate incorporation

from Wells Fargo & Company facilitated the alleged fraudulent sales practices, and thus does

not sufficiently allege that these corporations are distinct in a manner relevant to RICO liability.
As Plaintiff thus fails to allege a RICO person distinct from the RICO enterprise, she fails to
state a claim on which relief may be granted.
C.. Proximate Cause

In considering whether a plaintiff has sufficiently pleaded proximate cause in a RICO
claim, "the central question .. is whether the alleged violation led directly to the plaintiff's

injuries." Anza v Ideal Steel Supply Corp., 547 U.S. 451, 461, 126 S. Ct. 1991, 164 L.Ed.2d 720
(2006). A link that is '1oo remote" "purely contingent," or "indirect" is insufficient. Id. at 457,
126 S. Ct. 1991. See also Southeast Laborers Health & Welfare Fund v. Bayer Corp., 444 Fed.
Appx. 401,410 (11 ~ Cir. 2011).
A plaintiff's injury is too attenuated from the RICO violation where, for example, the
cause of the plaintiffs asserted banns arises from a set of actions "entirely distinct from the

alleged RICO violation." Anza v. Ideal Steel Supply Corp., 547 U.S. 451,458 (2006). In Anza,
for example, the plaintiff and defendant sold steel mill products and related supplies and
services. Id. al 453. The plaintiff alleged that defendant "adopted a practice of failing to charge
the requisite New York sales tax to cash-paying customers," allowing the defendant to "reduce it

prices without affecting its profit margin." Id. The plaintiff alleged that defendant submitted

fraudulent tax return to the New York State Dept. of Taxation and Finance to conceal is conduct.

9

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 10 of 11

Id. Based on this alleged fraud, plaintiff asserted two RICO claims.

Proximate cause was

ultimately found lacking because plaintiff's asserted harms arose from a "set of actions (offering
lower prices) entirely distinct from the alleged RICO violation (defrauding the State). Id at 458.
In this case, Defendant challenges the sufficiency of Plaintiffs proximate cause
aUegations, correctly observing that while the alleged RICO violations, premised on fraudulent
consumer sales activity, might logically be tied to economic injury suffered to Wells Fargo
customers, these violations are not logically related to the injuries allegedly suffered by
Plaintiff (wrongful discharge and associated economic loss, miscarriage and resulting emotional
injuries).

The Court agrees that the Complaint does not sufficiently allege proximate cause

where it shows no logical connection between the Defendanfs alleged fraudulent consumer
sales activity and the injuries allegedly suffered by Plaintiff as a result of her alleged wrongful
termination from employment. Because Plaintiffs' asserted injuries arise from a set of actions
entirely distinct fonn the alleged predicate RICO violations, proximate cause is lacking as a

matter of law. Further, as no amendment could correct this pleading deficiency, the Court finds
amendment to be futile and shall dismiss Count 2 with prejudice. In re Burlington Coat Factory
Sec. Litig., 114 F.Jd 1410, 1434 (3d Cir. 1997).
IV.

CONCLUSION

Based on the foregoing, it is ORDERED AND ADJUDGED:
l. The Defendant's Motion to Dismiss Count 2 of the Plaintiffs' Fourth Amended

Complaint [DE 187] is GRANTED and Plaintifrs Florida RICO claim (Count 2) is
DISMISSED WITH PREJUDICE.

10

Case 1:16-cv-24918-JEM Document 230 Entered on FLSD Docket 05/24/2018 Page 11 of 11

2. The Defendant's motion to strike the punitive damage claim from the

Florida

Whistleblower Act claim (Count I) is GRANTED and the demand for punitive
damages is STRICKEN from the Plaintiffs Fourth Amended Complaint

DONE AND ORDERED in Chambers at Miami, Florida this"~ day of May, 2018.

cc. all counsel

11

ATTACHMENT ''C''

Case l:16-cv-24918-JEM

Document 285 Entered on FLSD Docket 01/02/2019 Page 1 of 12

UNITED STATES DISTRICT COURT FOR THE

SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
Case Number: 16-24918-CIV-MARTINEZ-GOODMAN

DIANA BERBER,
Plaintiff,
vs,

WELLS FARGO BANK, N.A. and
MARSHA PAINTER,
Defendants.
I
ORDER GRANTING DEFENDANT'S MOTION FOR SUMMARY JUDGMENT
THIS CAUSE came before the Court on Defendant, Wells Fargo Bank, N.A.'s Motion
for Summary Judgment with Supporting Memorandum of Law (the "Motion") [ECF No. 252].

Defendant filed a Statement of Facts in Support of its Motion for Summary Judgment [ECF No.
253}. Plaintiff, Diana Berber, filed a Memorandum of Law in Opposition to Defendant's Motion
for Summary Judgment of Dismissal {ECF No. 256] and an Affidavit in Opposition to

Defendant's Motion for Summery Judgment of Dismissal [ECF No. 255). Defendant filed a
Reply in Support of its Motion for Summery Judgment [ECF No. 257]. The Court has considered
the Motion, the response thereto, the record in this action, and is otherwise fully advised in the

premises.
The Court notes as a preliminary manner that Local Rule 56. l provides that '·[ aJ motion

for summary judgment and the opposition thereto shall be accompanied by a statement of
material facts as to which it is contended that there does not exist a genuine issue to be tried or
there does exist a genuine issue to be tried, respectively," S.D. Fla. R. 56.1. Moreover, Rule 56. l
further provides how such statements of material facts should be formatted:
Statements of material facts submitted in opposition to a motion for summary
judgment shall correspond with the order and with the paragraph numbering

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 2 of 12

scheme used by the movant, but need not repeat the text of the movant's
paragraphs. Additional facts which the party opposing summary judgment
contends are material shall be numbered and placed at the end of the opposing
party, s statement of material facts.

Id. Lastly, Rule 56, l(b), titled "Effect of Failure to Controvert Statement of Undisputed Facts/'
states as follows: H(a]ll material facts set forth in the movant's statement filed and supported as

required above will be deemed admitted unless controverted by the opposing party's statement,
provided that the Court finds that the movant's statement is supported by the evidence in the
record." S.D, Fla, R. S6.l(b), A review of the record in this matter reflects that Plaintiffs
opposition to Defendant's Motion for Summary Judgment is not accompanied by a statement of
material facts in opposition. To date, Plaintiff has only flied an Affidavit and has not filed a
statement of material facts in opposition~ as required by Rule. 56, 1. Accordingly, this Court will
deem all material facts set forth in Defendant's Statement of Facts in Support of its Motion for
Summary Judgment admittedt provided that such facts are "supported by the evidence in the
record." S.D. Fla. R. 56.l(b).
I.

BACKGROUND

Plaintiffs Florida Private Whistle blower Act 1 cause of action arises out of Defendant's
alleged retaliatory termination of her employment because she "objected to, or refused to
participate in, activities which were in violations of laws, rules, or regulations" [ECF No. 102

~

36]. 2 From July 2013 through March 2014, Defendant employed Plaintiff as a personal banker at
a Wells Fargo Bank, N.A. ("WFBNA

0 )

branch located at 3600 North Ocean Boulevard, Fort

Lauderdale, Florida. See Affidavit of Pl ai nti ff Diana Berber [ECF No. 255 , 3], While employed
at Wells Fargo. it is undisputed that there were issues with Plaintiffs job performance [ECF No.
1 Florida
2

Statutes § 448. IO I (3).

This Court previously granted Defendant's Motion to Dismiss Count II of P!aintifrs Fourth Amendment

Complaint (Florida RICO) and Defendant's Motion to Strike the Punitive Claim asserted in Count ! of the Fourth
Amendment Complaint (Florida Whist!eb!ower Act) (ECF No. 230]. As a result, Plaintiff's Florida Whistleb!ower
claim is the remaining cause of action in this case.

-2-

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 3 of 12

253 ~, 8-9]. Specifically, Plaintiff once came to work late without providing notice [ECF No.
254-2 at 14:20-23], failed to meet sales goals (id. at 15:9-14), failed to schedule a sufficient

number of appointments to assist Plaintiff in reaching sales goals (id. at 15: 19-24), and failed to
schedule a sufficient number of outside office events in order to generate sales by finding new
customers to open accounts with Wells Fargo (id at 16: 10•25; 17: 1). Plaintiff also confirmed she

received a one out of five in a 2013 performance evaluation and also added, u1 know all my
reviews were horrifically low" [ECF No. 254•2, at 33:16-25; 34:1-5}.3
Moreover, prior to her tennination, Plaintiff was issued written discipline on occasion
(id at 9:8-12) and placed on a Perfonnance Improvement Plan ("PIPn)4 as her performance in

the foregoing areas were "below acceptable levels,. (id at 11 :9-16). After Plaintiff was placed on
her PIP on October 28, 2013, she was issued an Infonnal Warning on December 2, 2013 for the
period of October 28 2013 through November 29 2013, as her manager at the time, Ms. Marsha
1

Painter, determined that she was still not meeting performance standards. Id. at 18: 19-23.s
Plaintiff does not contest that she failed to meet these job performance expectations. Id at 19:20·
25; 20:1•3; see also ECF No. 253 115. Plaintiff also received a second '"verbal/written warning
for failing to meet performance standards and work expectations in the area of creating and
approving wire transfers" on February l l 2014 [ECF No. 253 , 18]. Lastly, Plaintiff received a
1

Final Warning of Performance, also referred to as the "Formal Warning Performance" on
February 12, 2014, which outlined the following performance~related issues with Plaintiff: ..(i)
not consistently engaging behind the teller line with customers~ (ii) not following up daily with
A summation of Plaintifrs job performance is also found in Defendant's Statement of Facts in Support of its
Motion for Summary Judgment [ECF No. 253 ~,r 8-9].

3

As noted in Defendant's Statement of Facts in Support of its Motion for Summary Judgment, Plaintiff was
"expected to, among other things, engage in the following activities to improve and sustain her performance to an
acceptable level: {i) actively work behind the teller line with tellers building relationships with both team members
and clients; (ii) pre-plan a weekly schedule of a variety of outside locations to visit; (iii) complete a full profile with
all clients asking questions around needs and lifestyle; and (iv) make daily contacts with clients to thank them for
banking with Wells Fargo .. [ECF No. 253 ,r 12].
4

'See also ECF No.253116.

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 4 of 12

contacts received at events; {iii) not consistently presenting customer offers; (iv) not effectively
planning outside activities, such as being prepared with a list of businesses to visit or follow up

with contacts from outside events attended; and (v) not completing daily activities, such as
making outbound calls to attempt to create an appointment pipeline" [ECF No. 253

,r

19; ECF

No. 254-2, at 26:8-25; 27:1-12].
On March 18, 2014, Defendant sent Plaintiff a letter terminating her employment
(hereinafter, "Termination Letter"), stating that she had "not met the performance expectations
regarding daily activities to attain sales goals required in this position." [ECF No. 255 at p. 14].
Plaintiff stated that at the time she received the Termination Letter, she "did not know that {herJ
employment was being terminated in retaliation for [her] refusal to engage in 'activities'
encompassing the fraudulent opening of additional checking, savings and credit card accounts
for existing customers and new customers." Id.

~

6. Moreover, according to Plaintiff, during her

time at this WFBNA branch, Plaintiff alleges that she was "pressured" by Ms. Painter, "to open
additional checking, savings and credit card accounts for existing customers and to recruit new
customers for whom checking, savings and credit card accounts could be opened." Id. 1 4. In
addition to being pressured by Ms. Painter, Plaintiff also alleged that Ms. Painter "humiliated"
and "harassed" her as a result of her failure to meet an "excessively high new account sales
quotas," which Plaintiff was required to meet. Id. Despite the foregoing, Plaintiff was never
asked to engage in a fraudulent activity [ECF No. 254-2, at 42:19-24; 50:20-23: 58:8-23], such
as opening fake or fraudulent accounts (id. at 42: 6-13) or misleading a customer into opening an
account (id. at 4 7: 17-23). Defendant now moves for summary judgment on Plaintiff's remaining
Florida Whistleblower cause of action.
II.

LEGAL STANDARD

Rule 56 of the Federal Rules of Civil Procedure states that "(a] party may move for
summary judgment, identifying each claim or defense --or the part of each claim or defense--on
which summary judgment is sought." Fed. R. Civ. P. 56(a). Rule 56 further provides that "[t]he
-4-

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 5 of 12

court shall grant summary judgment if the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law." Id. Accordingly,
"the plain language of Rule 56[a] mandates the entry of summary judgment, after adequate time

for discovery and upon motion, against a party who fails to make a showing sufficient to
establish the existence of an element essential to that party's case, and on which that party will
bear the burden of proof at trial." Celotex Corp. v. Catrett, 477 U.S. 317, 322 (I 982).
"The moving party bears the initial burden to show the district court, by reference to

materials on file, that there are no genuine issues of material fact that should be decided at trial.

Only when that burden has been met does the burden shift to the non-moving party to

demonstrate that there is indeed a material issue of fact that precludes summary judgment."
Clark v. Coats & Clarks, Inc., 929 F.3d 604, 608 (11th Cir. 1991). Rule 56(e) "requires the

nonmoving party to go beyond the pleadings and by her own affidavits, or by the 'depositions,
answers to interrogatories, and admissions on file,' designate 'specific facts showing that there is
a genuine issue for trial.'" Celotex, 477 U.S. at 324. Thus, the nonmoving party "may not rest
upon the mere allegations or denials of [her] pleadings, but ... must set forth specific facts

showing that there is a genuine issue for trial." Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (I 986). The inferences drawn from the underlying facts must be viewed in the light most
favorable to the nonmoving party. Scott v. Harris, 550 U.S. 372,378 (2007).

III.

DISCUSSION

A. Florida's Whistleblower Act

As the applicable law is state substantive law in this diversity action, the Florida
Whistleblower Act ("FWA") governs. Sierminski v. Transouth Financial Corp., 216 F.3d 945,
950 (I Ith Cir. 2000) (citing Erie R.R. Co. v. Tompkins, 304 U.S. 64, 78, 58 S. Ct. 817, 82 L.Ed.
I t88 (I 938)). The FWA provides that "[a]n employer may not take any retaliatory personnel
-5-

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 6 of 12

action against an employee because the employee has:
(!) Disclosed, or threatened to disclose, to any appropriate governmental agency,
under oath, in Miting, an activity, policy, or practice of the employer that is in
violation of a law, rule, or regulation. However, this subsection does not apply

unless the employee has, in writing, brought the activity, policy, or practice to
the attention of a supervisor or the employer and has afforded the employer a
reasonable opportunity to correct the activity, policy, or practice.

(2) Provided infonnation to, or testified before, any appropriate governmental
agency, person, or entity conducting an investigation, hearing, or inquiry into
an alleged violation of a law, rule, or regulation by the employer.
(3) Objected to, or refused to participate in, any activity, policy, or practice of the
employer which is in violation ofa law, rule, or regulation.
See Fla. Stat. § 448. l 02. Plaintiff's remaining cause of action in this matter is premised on

Defendant's alleged violation of Florida Statute section 448.102(3), namely, that Defendant
tenninated her because she "objected to, or refused to participate in, activities which were in
violations of law, rules, or regulations." See Plaintiff's Fourth Amended Complaint [ECF !\To.

102, 36]. Thus, in order to rule on Defendant's Motion for Summary Judgment, this Court must
first detennine the requirements for a prima.facie case under section 448.102(3 ).
When determining whether "the necessary causal link between the alleged retaliatory
action and the objection to illegality has been established," the Eleventh Circuit has held that the
analysis in Title VII retaliation cases applies, absent any other guiding case law. Sierminski, 216

FJd at 950-95 I. Under this standard, "[ o]nee plaintiff establishes a prima facie case by proving
only that the protected activity and the negative employment action are not completely unrelated,
the burden shifts to the defendant to proffer a legitimate reason for the adverse action." Id at
950. "The burden then shifts back to the plaintiff to prove by a preponderance of the evidence
that the 'legitimate' reason is merely pretext for prohibited, retaliatory conduct." Id
Nevertheless, plaintiff carries the initial burden of proof in "presenting sufficient evidence to
aJlow a reasonable jury to determine that he has satisfied the elements of his prima facie case."
Eder v. Interline Brands, Inc., Case No. I0-CV-60470, 2011 WL 13214275, at '4 (S.D. Fla.

-6-

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 7 of 12

Nov. 18,201 !).

Other courts in this district have held that in order to establish a prima facie case under
the FWA, a plaintiff must show: ( l) that he or she objected to or refused to participate in any
illegal activity, policy, or practice of the defendant or he or she engaged in statutorily protected
activity; (2) he or she suffered an adverse employment action; and (3) the adverse employment

action was causally linked to his or her objection or refusal." Eder, 2011 WL 13214275, at '4;
see also Fedolfi v. Banyan Air Services, Inc., Case No. 05-61634-CJV, 2006 WL 8436080, at
'17 (S.D. Fla. Dec. 15, 2006); Denarii Systems LLC v. Arab, Case No. 12-24239-CIV, 20 I 4 WL
2960964, at •3 (S.D. Fla. June 30, 2014). Accordingly, based on the plain language of the
statute, this Court finds that the FWA "requires a plaintiff show that he or she refused to

participate in or infonned others of their employer's actual violation of law." Fedo/fi, 2006 WL
8436080, at '17. While the language of the statute is unambiguous, the Court also notes that the

Florida Supreme Court has read the statute to mean exactly what it reads. In Walsh, the Florida
Supreme Court noted how the FWA "prohibits private sector employers from taking retaliatory
personnel action against employees who 'blow the whistle' on employers who violate the law or
against employees who refuse to participate in violations of the law and provides employees a
civil cause of action for such retaliation." Arrow Air, Inc. v. Walsh, 645 So.2d 422, 423 (Fla.

1994). In sum, a plaintiff is required to "blow the whistle" on an employer for violating the law
or refuse to participate in violating the law and are tenninated as a result.

B, Plaintiff has failed to prove a primafacie case.
Here, Plaintiff has failed to establish a prima facie case under the FW A. First, it cannot
be said that Plaintiff "objected to or refused to participate in any illegal activity, policy, or
practice of the defendant." Eder, 201 I WL 13214275, at '4. By Plaintiffs own admission, in her

Affidavit in Opposition to Defendant's Motion for Summary Judgment of Dismissal, she stated
that at the time she received her termination letter, she "did not know that [her] employment
was being terminated in retaliation for [her] refusal to engage in 'activities' encompassing the
-7-

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 8 of 12

fraudulent opening of additional checking, savings and credit card accounts for existing
customers and new customers of the Branch for the purpose of meeting my excessively high new
account sales quotas" [ECF No. 255, 6] (emphasis added). Moreover, Plaintiff also stated that it
was not until September 2016, almost two and a half years after her termination, 6 when
Defendant "announced that it has entered into monetary settlements with several governmental
agencies premised upon WFBNA 's improper retail sales practices (i.e., the fraudulent opening of
checking, saving and credit card accounts for existing and new customers of WFBNA)" that she
"realized that [her] employment had been terminated in retaliation for [her] refusal to engage in
'activities' encompassing the fraudulent opening of additional checking, savings and credit card
accounts for existing and new WFBNA customers." Id ,i 7. However, while employed by
Defendant, Plaintiff stated that she was never asked to engage in a fraudulent activity [ECF No.
254~2, at 42: 19-24; 50:20-23; 58 :8-23]. She was never asked to open fake or fraudulent accounts
(id at 42: 6- I3). She was not asked to mislead a customer into opening an account (id. at 4 7: 17-

23), Plaintiff is also not aware of any instances where her manager asked anyone else at her
branch to engage in fraudulent activity, Id at 42:25; 43: 1-2. Thus, it cannot be said that there is a
genuine issue of material fact as to whether Plaintiff objected to or refused to participate in any
illegal activity, policy, or practice of the Defendant because, simply put, the record evidence in
this case indisputably shows that Plaintiff never blew the whistle.
Moreover, Plaintiff's prima facie case is also fatal because, while she has suffered an
adverse employment action, she has failed to carry her "burden of showing a causal link between
the protected activity" and her termination. Arab, 2014 WL 2960964, at *3. The district court's
decision in Arab is instructive on this issue. In Arab, the defendant/counter plaintiff alleged the
plaintiff violated the FWA "by terminating him after he objected to an allegedly fraudulent
contract the plaintiff entered into in Ecuador." Id. The district court entered summary judgment
against the defendant / counter plaintiff on his FWA claim, finding that he failed "to carry his

6

Plaintiff's termination letter is dated March l 8, 2014 [ECF No, 255, at l 5].

- 8-

Case l:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 9 of 12

burden of showing a causal link between the protected activity and his termination." Id. The

district court reasoned that the defendant/ counter plaintiff"fail[ed] to specify who at Denarii he
complained to and fails to show a causal link between his disapproval of the plaintiffs activities
in Ecuador and his termination." Id. at *4. Like in Arab, it cannot be said that there is a causal
connection between Plaintiff's "protected activity" and her termination. Here, there is no record

evidence that Plaintiff complained to anyone employed by Defendant or objected to or refused to
participate in a sanctioned illicit activity by Defendant. At most, Plaintiff alleges she was
"pressured" by her manager to open additional checking, savings, and credit card accounts for

customers and she "suspected" other personal bankers of engaging in fraudulent activity (ECF
No. 255 , 4). Nevertheless, there is no record evidence that Plaintiff ever reported any of the
foregoing to anyone employed by Defendant or that Plaintiff was ever required or asked to
engage in any illicit activity [ECF No. 253

~

3 l]. Hence, this Court further finds that Plaintiff has

failed to meet her burden of proof in showing a causal link between her refusal to engage in
fraudulent activity and her termination.

C. Plaintiff has failed to put forth evidence that the reasons for her termination are
pretextual.
Even assuming, arguendo, that Plaintiff has met her burden in establishing a prima facie
case under the FWA, Plaintiff has still failed to "prove by a preponderance of the evidence that
the 'legitimate' reason is merely pretext for prohibited, retaliatory conduct." Sierminski, 216 F.3d
at 950. In this case, the Court finds that Defendant has met its burden in proffering "a legitimate
reason for the adverse action." Id. Specifically, Defendant has sho\\TTI that Plaintiff was placed in
a performance improvement plan as a result as of her subpar job performance, which included

Plaintiff: (i) coming into work late without providing notice [ECF No. 254-2 at 14:20-23]; (ii)
failing to meet sales goals (id. at 15:9-14); (iii) failing to schedule a sufficient number of
appointments to assist Plaintiff in reaching sales goals (id. at 15: 19-24); {iv) failing to schedule a
sufficient number of outside office events in order to generate sales by finding new customers to

-9-

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 10 of 12

open accounts with Wells Fargo (id at 16:10-25; 17:1); and (v) receiving a one out of five in a
2013 performance evaluation (id. at 33:16-25; 34:l-5). After being placed on her PIP, Plaintiff
was subsequently issued two warnings on December 2, 2013 and February 11, 2014 when she
failed to meet performance expectations (ECF No. 253 ~, 16-18]. When asked about the issues
raised by the first warning she received on December 2, 2013 in her deposition, Plaintiff did not
contest that she failed to meet these job performance expectations [ECF No. 254-2 at 19:20-25;
20:1-3]. Lastly, on February 12, 2014, Plaintiff also received a Formal Warning Performance
that outlined a multiple deficiencies with her job performance [ECF No. 253 ~ 19; ECF No. 2542, at 26:8-25; 27:1-12]. Once more, when asked about her Formal Warning Performance in her
deposition, Plaintiff did not contest that she was not consistently engaging in sufficient sales
activities and that her metrics did not meet the requirements for daily profits, partner referrals,

DDA packages, and loans (ECF r-o. 254-2, at 26:13-25; 27:1-4].Tellingly, Plaintiff added that
she was aware that, "by virtue of this Final Perfonnance Warning, that if there wasn't
improvement, there would be, you know, consequences, up to and including termination." Id. at
29: 12-16. Plaintiff was subsequently terminated on March 18, 2014 after a review of her "overall
performance as a Personal Banker" and determination by Defendant that she had "not met the
perfonnance expectations regarding daily activities to attain sales goals required in this position"

[ECF No. 255, at I 5]. Accordingly, after a review of the record in this action, this Court finds
that-assuming arguendo Plaintiff has met its burden in establishing prima facie case--

Defendant has sufficiently proffered a legitimate reason for Plaintiffs termination.
As a result of Defendant's proffering a legitimate reason for her termination, Plaintiff
must prove by a preponderance of the evidence that Defendant's legitimate reason(s) are "merely
pretext for prohibited retaliatory conduct." Sierminski, 216 FJd at 950. This Court finds that
Plaintiff has failed to meet her burden on this issue. Plaintiff has offered no record evidence to

raise a genuine issue of material fact that the legitimate reason proffered by Defendant is pretext
for prohibited retaliatory conduct. By Plaintiffs own admission at her deposition, she stated that

- l O-

Case 1:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 11 of 12

the sole reason for her termination was for her failure to meet Defendants' sales goals [ECF No.
254-2, at 57: 19-22]. Moreover, Plaintifrs argument that she was terminated by objecting to or
refusing to engage in fraudulent activity, such as opening fake or fraudulent accounts for

customers, is unavailing because she was never asked by anyone employed by Defendant to
engage in any fraudulent activity [ECF No. 254-2, at 42:19-24: 50:20-23; 58:8-23]. Because she
was never asked to engage in such an illicit activity, it logically fol!ows that she could not report
any illicit activity or "blow the whistle," Hence, for the foregoing reasons, the Court finds that
Plaintiff has failed to prove by a preponderance of the evidence that Defendant's proffered
legitimate reason(s) are pretextual.
IV.

CONCLUSION

Accordingly, after careful consideration and for the reasons stated herein, it is

ORDERED and ADJUDGED that
I. Wells Fargo Bank, ~.A.'s Motion for Summary Judgment with Supporting
Memorandum of Law [ECFNo. 252] is GRANTED.
2. Count I of Plaintiffs Fourth Amendment Complaint (FWA) is DISMISSED with
prejudice for the reasons stated herein.

3. Wells Fargo Bank, N.A.'s Omnibus Motion in Limine to Exclude Irrelevant and
Inadmissible Testimony and Evidence [ECF No. 259], Defendant's Motion for Leave
to File Daubert Motion to Exclude the Testimony and Written Opinions of Dr. Vilar
Shpitalnik [ECF No. 260], Defendant's Motion to Quash Unenforceable Trial
Subpoenas [ECF No. 272], and Defendant's :\1:otion for Continuance of Calendar Call
and Trial Period [ECF No. 283] are DENIED as MOOT.

4. This case is CLOSED.

- 11 -

Case l:16-cv-24918-JEM Document 285 Entered on FLSD Docket 01/02/2019 Page 12 of 12

5. The calendar call scheduled in this matter on January 3, 2019

IS

hereby

CANCELLED.
DONE AND ORDERED in Chambers at Miami, Florida, this )._ day of January, 2019.

JOSEE.

RTINE

\JNITEIJ TATES DISTRIC JUDGE
Copies provided to:
Magistrate Judge Goodman
All Counsel of Record

I

• 12 ·

